la
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No, 18-14776:
In re: SAMUEL C, MOHORNE y
Debtor.
SAMUEL C. MOHORNE
Plaintiff h- Appellant,
verses
BEAL BANK,
BROWARD COUNTY SHERIFF
Defendants - Appellees.
Appeal from the United States District Court
for the Southern District of Florida
(June 12, 2019)
Before WILLIAM PRYOR, ROSENBAUM, and
GRANT, Circuit Judges. :
PER CURIAM

2a
The petition(s) for panel rehearing filed by Appellant
is DENIED.
ENTERED FOR THE COURT:
UNITED STATES CIRCUIT JUDGE
ORD-41
(June 12, 2019)
Before WILLIAM PRYOR, ROSENBAUM, and
GRANT, Circuit Judges.
PER CURIAM:
Samuel Mohorne, a former debtor proceeding
pro se, appeals the district court’s order affirming
the bankruptcy court’s denial of his motions to
reopen his Chapter 13 bankruptcy proceedings, to
stay state-court proceedings, and to take judicial
notice of several prior court orders. We affirm.
I. The relevant facts, in brief, are as follows.
In 2001, Mohorne executed a promissory note
secured by a mortgage on certain real property.
After Mohorne defaulted; Beal Bank (“Beal”) moved
to foreclose the mortgage. A Florida state court
entered a final judgement of foreclosure in favor of
Beal Bank in 2005, and Beal purchased the property
at a court-ordered sale. After the sale, Mohorne filed
several motions arguing that his property consisted
of two lots—a vacant lot and a lot with a dwelling
unit—and that the mortgage attached to the
“partial-mortgage theory”-and held that the

3a
mortgage covered both lots. That decision was
upheld on appeal.
Later in 2005, Mohorne filed for Chapter 13
bankruptcy. The bankruptcy court granted Beal
Bank relief from the automatic stay to allow it to
complete the foreclosure process. Seeking to vacate
the stay-relief order, Mohorne advanced his partialmortgage theory in the bankruptcy court, but to no
avail. Mohorne eventually received his Chapter 13
bankruptcy discharge in 2010, and the bankruptcy
court closed his case in 2013.
In April 2017, Mohorne filed the instant
motions to reopen the bankruptcy proceeding and
stay the original foreclosure proceeding. The gist of
these motions appears to be that, in prior
bankruptcy proceedings, a bankruptcy court had
ruled in his favor on the partial-mortgage theory, so
subsequent courts should have been bound by that
ruling.
II. In bankruptcy cases, “we independently
examine the factual and legal determinations of the
bankruptcy court and employ the same standards of
review as the district court.” IBTInt’l Inc. v.
Northern (In re Inti Admin. Servs., Inc.), 408 F.3d
689, 698 (11th Cir. 2005). We review a bankruptcy’s
grant or denial of a motion to reopen for an abuse of
discretion. See Slater v. United States Steel Corp.,
871 F.3d 1174, 1186-87 (11* Cir. 2017) (en banc)
(explaining that under 11 U.S.C. § 350(b), “the
bankruptcy court retains broad discretion to reopen
a closed case on a motion of the debtor or another
party in interest”). We will not set aside a
discretionary decision by the bankruptcy court
unless the decision represents a clear error of

4a
judgement. Rasbury v. internal Revenue Serv. {In
re Rasburyh, 24 F.3d 159, 168 (11th Cir. 1994).
A bankruptcy case may be reopen to
administer assets, to accord relief to the debtor, or
for “other cause.” 11 U.S.C. § 350(b). in terms of
“other cause,” the bankruptcy code incorporates the
standards of Rule 60(b), Fed. R. Civ.P. See Fed. R.
Bankr. P. 9024. Under Rule 60(b), a party may
relieved from a final judgement or order for several
reasons. Among these are the following: newly
discovered evidence, fraud or misrepresentation, the
judgement is void or has been discharged or vacated,
and “any other reason that justifies relief.” Fed. R.
Civ. P. 60(b).
Here, the bankruptcy court did not abuse its
discretion by denying Mohorne’s motion to reopen.
Mohorne claims that rulings in prior bankruptcy
proceedings (in 1999 and 2002) adopted his partialmortgage theory, but the orders he references appear
to involved the judgement liens of different creditors,
not Beal’s mortgage lien. Mohorne also asserts
violations of a 2006 order of the bankruptcy court,
but that order simply continued a hearing on a
matter in the bankruptcy proceeding. None of the
referenced orders provide any reason to reopen the
bankruptcy proceeding. None of the referenced
orders provide any reason to reopen the bankruptcy
proceeding in 2017 for the apparent purpose of
relitigating matters that having long since been
resolved. The bankruptcy court therefore acted well
within
its discretion by refusing to reopen the case. And
because the motion to reopen was properly denied, so

5a
too was the related motion to stay and take judicial
notice.
The bulk of Mohorne’s briefing is devoted to
attacking the original state-court judgement and
other orders in prior proceedings. But these matters
are not at issue in this appeal. “It is well settled
that an appeal from denial of Rule 60(b) relief does
not bring up the underlying judgement for review.”
Jackson v. Seaboard Coast Line R. Co., 678 F2d. 992,
1021 (11th Cir. 1982) (quotation marks omitted).
“This is true even if the underlying judgement is
erroneous.” Gibbs v. Maxwell House, 738 F.2d 1153,
1155 (11th Cir. 1984). The only matter properly
before us is the bankruptcy court’s order denying
Mohorne’s motions to reopen and stay.
Mohorne also raises a few challenges to the
district court’s handling of his appeal of the
bankruptcy court’s order. In particular, Mohorne
takes issue with the district court’s denial of his
request to proceed in forma pauperis, its
authorization of Beal’s filing of an untimely
appellee’s brief, its determination of the appeal
without a hearing, and its alleged violation of our
mandate in an earlier appeal. Any errors are
harmless, however, because we have independently
reviewed the bankruptcy court’s order and concluded
that the bankruptcy court did not abuse its
discretion. See In re Inti Admin. Servs., 408 F.3d
at 698For these reasons, the bankruptcy court’s
order is AFFIRMED.
July 18, 2019
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number^ 18-14776-AA
Case Style: Samuel Mohorne v. Beal Bank, et al

6a
District Court Docket No: 0:l7:cv-61007-KMM
Secondary: Case Number: 0:05-bkc-25836'JKO
The enclosed order has been entered on petition(s)
for rehearing.
See Rule 41, Federal Rules: of Appellate Procedure
and Eleventh Circuit Rule 41-1 for information
regarding issuance and stay of mandate.
Sincerely,:
DAVID J. SMITH, Clerk of Court
Reply to: T.L. Searcy, AA/lt
Phone # (404) 335*6180;
REHG-1 Ltr Order Petition Rehearing

: 7a
APPENDIX B
District Court Docket Nos.
0:l7-cv-61007-KMM; Orrbkc-25836-JKO
In re: SAMUEL C, MOHORNE
; Debtor.
■

SAMUEL C. MOHORNE,
Plaintiff- Appellant,
Verses
BEAL BANK,
. : BROWARD COUNTY SHERIFF,
Defendants - Appellees.

Appeal from the United States District Court for the
Southern District of Florida

JUDGEMENT
It is hereby ordered, adjudge, and decreed that the:
opinion issued on this date in this appeal is entered
as the judgement of this Court.
: Entered'February 12, 2018 • •
For the Court; DAVID J. SMITH, Clerk of Court
By: Jeff R. Patch
I ISSUED AS MANDATE 07/13/2018

•S

(

V

8a
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 17-13534
Non-Argument Calendar

D C. Docket Nos. 0:l7-cv-61007-KMM; 05-bkc-25836JKO
In re: SAMUEL C. MOHORNE,
Debtor.

SAMUEL C. MOHORNE
Plaintiff" Appellant.
verse
BEAL BANK,
BROWARD COUNTY SHERRIFF,
Defendants - Appellees;
Appeal from the United States District Court
For the Southern District of Florida

9a

(February 12, 2018)

Case: 17-13534

Date Filed 02/12/2018

Before WILSON, JORDAN, and ROSENBAUM,
Circuit Judges,
PER CURIAM:
Samuel Mohorne appeals pro se from the
district court’s dismissal of his appeal from the
bankruptcy court for failure to timely file his initial
brief after he was denied an extension of time to file
that brief. After careful review, we vacate and
remand.
This appeal relates to Mohorne’s bankruptcy
case, which was closed in 2013. In April 2017,
Mohorne filed a motion to reopen the bankruptcy
case. The bankruptcy court denied that motion, and
Mohorne appealed to the district court. Shortly after
his appeal was docketed in the district court,
Mohorne moved for an extension of time to file his
brief, which Appellee Beal Bank opposed. On July
24, 2017, the day before Mohorne’s brief was due, the
district court denied the extension motion without
prejudice because Mohorne did not indicate the
length of extension sought. Three days later, when
Mohorne failed to file his brief, in addition to a
notice of appeal to this Court.
We review for an abuse of discretion the
district court’s dismissal of a bankruptcy appeal for

10a
failure to prosecute. See Pyramid Mobile Homes,
Inc. v. Speake (in re Pyramid Mobile Homes, Inc.),
531 F.2d 743, 746 (5th Cir. 1976). Likewise, we
review a district court’s decision to deny a request
for an extension of a filing deadline for an abuse of
discretion. See Young v. City ofPalm Bay, Fla.,
358.F.3d 859, 863 (11th Cir. 2004).
The abuse-of-discretion standard is
deferential and affords a range of choice to the
district court. Heffner v. Blue Cross & Blue Shield
ofAla., Inc., 443 F.3d 1330, 1337 (IP11 Cir. 2006).
Nevertheless, an abuse of discretion occurs if the
court does not apply the proper legal standard, does
not follow proper procedures in making the
determination, or relies on clearly erroneous factual
findings. Id.
In a bankruptcy appeal to the district court,
the appellant has thirty days to file a brief “after the
docketing of notice that the record has been
transmitted or is available electronically.” Fed. R.
Bankr. P. 8018(a)(1). “[I]n its discretion,” the
district court may extend this time “for cause shown”
either (l) with or without motion before the time to
act has expired, or (2) on motion made after the time
to act has expired “where the failure to act was the
result of excusable neglect.” Fed. R. Bankr. P.
9006(b)(1). If the appellant fails to file a brief on
time or within an extended time authorized by the
district court, the court may dismiss the appeal,
either on motion of the appellee or, “after notice,” on
the court’s own motion. Fed. R. Bankr. P. 8018(a)(4).

11a
In general, dismissal for failure to prosecute a
bankruptcy appeal “is discretionary and should be
considered in light of the prejudicial effect of delay
on the appellee and the bona fides of the appellant.”
In re Pyramid Mobile Homes. Inc., 531 F.2d at 746.
While Rule 8018(a)(4) authorizes dismissal for
failure to file a brief on time, we have concluded that
“routine dismissal for failure to timely file briefs” is
not appropriate. Brake v. Tavormina (in re Beverly
Mfg. CorpX 778 F.2d 666,667 (11th Cir. 1985)
(declining to adopt a “flexible standard requiring bad
faith, negligence or indifference” before dismissal.
Id.
Here, the district court abused its discretion by
applying “a stringent rule of dismissal for failure to
timely file briefs” that is inconsistent with the
“flexible standard” we adopted in In re Beverly
Manufacturing. See Heffner, 443 F.3d at 337. We
see nothing in the record that indicates bad faith,
negligence, or indifference on Mohorne’s part.
Mohorne timely asked for additional time to file his
brief, citing “medical testing” and the need to “find
new counsel,” but the court did not deny his motion
until the day before his brief was due. Then, two
days after his brief was due, the court dismissed the
appeal on its own motion without providing Mohorne
motice under Rule 8018(a)(4) and an opportunity to
respond. Consequently, we conclude that the court
abused its discretion by dismissing Mohorne’s
appeal. Beal Bank argues that Mohorne has
1 This Court adopted as binding precedent all Fifth Circuit
decisions prior to October 1, 1981. Bonner v. City of Prichard,
661 F.2d 1206, 1209 (11th Cir. 1981) (en banc).

12a
abandoned any challenge to the district court’s
decisions by failing to address the substance of those
decisions in his briefing to this Court. It is wellestablished that, “[w]hile we read briefs filed by pro
se litigants liberally, issues not briefed on appeal by
a pro se litigant are deemed abandoned.” Timson v.
Samoson, 518 F.3d 870, 874 (11th Cir. 2008)
(citations omitted). Here, however, we conclude that
Mohorne’s brief, liberally construed, adequately
raises a challenge to the denial of his extension
motion and the dismissal of his appeal. Mohorne
asserted that the court erred in waiting nearly 30
days to rule on his extension motion, denying that
motion, and then dismissing the case without
providing him notice or additional time to file his
brief. See, e.g., Appellant’s Br. At iv. (“The Court
should have notified the pro se[,] permitting him ...
time to file ... his brief[,] in writing prior to closing
the case.”).
Beal Bank also contends that the district court’s sua
sponte dismissal under Rule 8018 was proper.
Specifically, Beal Bank argues that the court
satisfied Rule 8018(a)(4)’s notice requirement for sua
sponte dismissals, citing a district court decision,
Fohrmeister v. Puckett, No. 8H7-CV-516, 2017 WL
2958919 (M.D. Fla. July 11, 2017). But Fohrmeister
did not address Rule 8018(a)(4)’s notice requirement,
as the appellee in that case had filed a motion to
dismiss. Id., *1; see Fed. R. Bankr. P. 8018(a)(4)
(stating that dismissal must be “after
notice” only is the court acts on its own motion).
Plus, the appellant in that case had not
moved for extension of time, as Mohorne did here,
and the court expressly found that the appellant was

13a
“either acting negligently or indifferently” under the
standard announced in In re Beverly Manufacturing
Corp. See Fohrmeister, 2017 WL 2958919\ *2. The
district made know similar findings in this case.
Accordingly, Fohrmeister is clearly distinguishable.
Finally, Beal Bank argues that Mohorne’s
appeal is frivolous, in any event, se we should affirm
the district court on that basis. It claims that we
may look to the “the bona fides of the appellant”
under In re Pyramid Mobile Homes, Inc. ’s reference
to the bona fides of the appellant” to mean the
appellant’s proffered reasons for her case. See 531
F.2d at 746 (measuring the appellant behavior in
prosecuting the appeal against the prejudice to the
appellee). And while we possess the power to affirm
on any ground supported by the record, we conclude
that the more prudent course of action in this case is
simply remand this case is simply to remand this
case back to the district court for further proceedings
as appropriate under the circumstances.
For these reasons, we vacate the dismissal of
Mohorne’s appeal from the bankruptcy court and
remand to the district court for further proceedings.
VACATED AND REMANDED.

Case: 18-14776

Date Filed: 07/18/2019

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-14776-FF
In re: SAMUEL MOHORNE,
Debtor.

SAMUEL C. MOHORNE,
Plaintiff - Appellant,
versus
BEAL BANK,
BROWARD COUNTY SHERIFF,
Defendants - Appellees.
Appeal from the United States District Court
for the Southern District of Florida
BEFORE: WILLIAM PRYOR, ROSENBAUM, and GRANT, Circuit Judges.
PER CURIAM:
The petition(s) for panel rehearing filed by Appellant is DENIED.
ENTERED FOR THE COURT:

UN\JED STATESCpCUIT JUDGE
ORD-41

J

Additional material
from this filing is
available in the
Clerk's Office.

{

